Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





TRACKING BENEFICIARIES’ TRUE 

OUT-OF-POCKET COSTS FOR THE 

 PART D PRESCRIPTION DRUG 

          BENEFIT 





                    Daniel R. Levinson

                     Inspector General 


                      December 2007

                     OEI-03-06-00360

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                        S U M M A R Y


                  OBJECTIVE
                  1.	 To review the processes that Part D plans and the Coordination of
                      Benefits Contractor (COBC) use to help ensure the accurate
                      tracking of beneficiaries’ true out-of-pocket (TrOOP) costs.

                  2.	 To determine the extent to which the Centers for Medicare &
                      Medicaid Services (CMS) conducts oversight of Part D plans to
                      ensure the accurate tracking of TrOOP costs.


                  BACKGROUND
                  The Medicare prescription drug program, known as Medicare Part D,
                  provides an optional prescription drug benefit for all Medicare
                  beneficiaries. Part D plans are responsible for tracking beneficiaries’
                  TrOOP costs. TrOOP costs are the prescription drug expenditures that
                  count toward the annual out-of-pocket threshold that beneficiaries must
                  reach before catastrophic drug coverage begins. Medicare beneficiaries
                  enrolled in Part D plans may have additional prescription drug
                  coverage. Tracking TrOOP costs involves coordination and
                  communication between CMS, contractors such as COBC, Part D plans,
                  and other payers of prescription drug benefits. The amount of
                  beneficiaries’ TrOOP costs impacts their cost sharing as well as CMS
                  payments to Part D plans.

                  To review the processes for and CMS’s oversight of the accurate
                  tracking of beneficiaries’ TrOOP costs, we interviewed staff from CMS
                  and its contractors and analyzed survey information from a sample of
                  138 Part D plans regarding activities, policies, and procedures related to
                  TrOOP costs. We gathered and analyzed relevant documentation from
                  respondents. We collected data from October 2006 through March 2007.


                  FINDINGS
                  Information on enrollees’ additional drug coverage, essential for the
                  accurate tracking of TrOOP costs, was not consistently submitted to
                  COBC in 2006. To track TrOOP costs accurately, Part D plans must have
                  information on any prescription drug coverage that enrollees have in
                  addition to Part D coverage. Twenty-nine percent of Part D plans did not
                  submit their enrollees’ additional drug coverage information to COBC in
                  2006. Most of these plans indicated that they did not have processes or
                  systems in place to transmit this information. In addition, 36 percent of
                  other payers that had active data-sharing agreements with COBC did not

OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S               i
E X E C U T I V E                 S U      M M A R Y


                   submit their enrollees’ additional drug coverage information for at least
                   one of those agreements in 2006.
                   Thirty-four percent of Part D plans did not submit prescription drug
                   event data in accordance with CMS requirements in 2006. CMS cannot
                   verify that plans have calculated beneficiaries’ TrOOP costs correctly if it
                   does not have plans’ prescription drug event (PDE) data. The PDE data
                   include prescription drug cost and payment data that enable CMS to make
                   payments to the plans and otherwise administer the Part D benefit.
                   Thirty-four percent of plans, covering 49 percent of Part D beneficiaries,
                   did not submit PDE data at the end of the first quarter or in one or more
                   months after the first quarter of 2006. These plans were not able to meet
                   CMS’s timeframes or had technical difficulties submitting PDE files.
                   Sixty-three percent of Part D plans cited problems with transferring
                   TrOOP balances when enrollees change plans. Nearly two-thirds of
                   Part D plans reported having issues or problems with transferring TrOOP
                   balances when enrollees change plans during the coverage year. At the
                   time of our review, the transfer of TrOOP balances between plans relied
                   heavily on labor- and resource-intensive processes, such as faxing transfer
                   records or creating hundreds of compact disks with transfer information for
                   enrollees’ new plans. In addition, plans indicated that enrollees’ transfer
                   records may contain incorrect, questionable, or inconsistent data.
                   CMS has conducted limited oversight of Part D plans’ tracking of
                   TrOOP costs. CMS has conducted limited oversight of Part D plans’
                   tracking of beneficiaries’ TrOOP costs. The oversight CMS has conducted
                   thus far relied on plans’ self-reported data. As of April 2007, other
                   oversight activities were either in the planning stages or in the process of
                   being implemented.


                   RECOMMENDATIONS
                   Tracking Part D enrollees’ TrOOP costs is a complex process involving
                   coordination of many entities and data systems, as well as compliance
                   with Part D instructions and requirements. Our findings indicate that
                   a number of these requirements were not carried out consistently in
                   2006. Therefore, we recommend that CMS:
                   Ensure that Part D plans collect, process, and submit all data required to
                   track enrollees’ TrOOP costs in a timely manner. CMS requires that
                   Part D plans collect and submit enrollees’ additional prescription drug
                   coverage information to COBC, process prescription drug claims and
                   submit PDE records to CMS, and work with other Part D plans to

 OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                ii
E X E C U T I V E                 S U      M M A R Y


                   transfer enrollees’ TrOOP balances. We recently learned that CMS is
                   working with the National Council for Prescription Drug Programs to
                   establish a standardized electronic system for transferring enrollees’
                   TrOOP balance information from one plan to another in real time. CMS
                   should continue to establish or improve automated systems to enable
                   Part D plans to meet all data requirements related to tracking TrOOP
                   costs.
                   Consider options for increasing the number of coordination of benefits
                   agreements with other payers and ensuring that data are submitted under
                   those agreements. Accurate tracking of TrOOP costs is dependent
                   largely on successful coordination and sharing of prescription drug
                   coverage information among payers and CMS contractors. CMS should
                   ensure that all options for increasing the number of data-sharing
                   agreements have been considered.

                   Because entities that provide additional drug coverage for Part D
                   enrollees are not required by law to report such information, CMS may
                   want to consider seeking to expand its authority to enforce agreements
                   once they are in place. The President’s 2008 Budget includes a proposal
                   to establish a data clearinghouse that would work to determine whether
                   private insurance or Medicare should pay for a beneficiary’s health
                   benefits. If implemented, such a clearinghouse could provide CMS with
                   access to more comprehensive drug coverage information.
                   Begin or complete implementation of planned oversight activities related
                   to the tracking of TrOOP costs. The implementation of the Part D
                   benefit was a large undertaking for CMS, its contractors, and Part D
                   plans. Now that the program has been in place for almost 2 years, CMS
                   should place more emphasis on conducting oversight activities.
                   Examining Part D plans’ efforts to track TrOOP costs should be a
                   priority given that these costs determine when beneficiaries reach each
                   phase of the Part D benefit. OIG intends to focus future work on
                   whether Part D plans have calculated beneficiaries’ TrOOP costs
                   correctly.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS agreed that OIG’s report identified potential issues regarding the
                   accurate tracking of TrOOP costs and that additional work is needed to
                   ensure that Part D plans are calculating TrOOP costs correctly. CMS
                   did not indicate whether it concurred with OIG’s three

 OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S            iii
E X E C U T I V E                 S U      M M A R Y


                   recommendations in its comments. However, CMS did note that it has
                   taken or will take steps in response to each of OIG’s recommendations,
                   such as continuing the Part D plans’ self-attestation process, enforcing
                   compliance with data-sharing agreements, and supporting legislation to
                   mandate insurer reporting of private insurance coverage. CMS also had
                   questions concerning OIG’s findings and suggested changes. We
                   addressed CMS’s questions and suggestions in the body of the report.
                   We ask that CMS indicate in its final management decision whether it
                   concurs with our recommendations.




 OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S            iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   Additional drug coverage information not submitted . . . . . . . . . . . 8 


                   Prescription drug event data not submitted . . . . . . . . . . . . . . . . . 10 


                   Problems with transferring TrOOP balances . . . . . . . . . . . . . . . . 11 


                   Limited oversight activities conducted. . . . . . . . . . . . . . . . . . . . . . 12 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   Agency Comments and Office of Inspector General Response . . . 16 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                   A: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 18 


                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  1.	 To review the processes that Part D plans and the Coordination of
                      Benefits Contractor (COBC) use to help ensure the accurate
                      tracking of beneficiaries’ true out-of-pocket (TrOOP) costs.

                  2.	 To determine the extent to which the Centers for Medicare &
                      Medicaid Services (CMS) conducts oversight of Part D plans to
                      ensure the accurate tracking of TrOOP costs.


                  BACKGROUND
                  The Medicare prescription drug program, known as Medicare Part D,
                  provides an optional prescription drug benefit for all Medicare
                  beneficiaries. Part D program expenditures totaled more than
                  $47 billion in 2006.1 As of April 2007, over 25 million Medicare
                  beneficiaries were enrolled in Part D prescription drug plans. Part D
                  plans are responsible for tracking beneficiaries’ TrOOP costs. TrOOP
                  costs are the prescription drug expenditures that count toward the
                  annual out-of-pocket threshold that beneficiaries must reach before
                  catastrophic drug coverage begins. Tracking TrOOP costs involves the
                  coordination of many entities and data systems. The amount of
                  beneficiaries’ TrOOP costs impacts their cost sharing as well as CMS
                  payments to Part D plans. The Office of Inspector General (OIG)
                  conducted this initial implementation review to identify potential issues
                  with ensuring the accurate tracking of TrOOP costs. OIG intends to
                  focus future work on whether Part D plans have calculated
                  beneficiaries’ TrOOP costs correctly.
                  Medicare Prescription Drug Program
                  CMS contracts with companies to provide prescription drug coverage for
                  Medicare beneficiaries. These companies sponsor plans that include
                  stand-alone prescription drug plans (PDP) as well as Medicare
                  Advantage-prescription drug plans (MA-PD) that offer integrated
                  coverage for both prescription drugs and other health care. Each
                  contract between CMS and these sponsors may include many plan



                    1 “2007 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and
                  Federal Supplementary Medical Insurance Trust Funds,” p. 5. Available online at
                  http://www.cms.hhs.gov/ReportsTrustFunds/downloads/tr2007.pdf. Accessed April 26,
                  2007.



OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                                  1
I N T R O D        U C T       I O N


                    benefit packages. Throughout this document, we refer to PDP and
                    MA-PD contracts as Part D plans.
                    Standard Prescription Drug Coverage
                    Part D plans are required by the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003 (MMA) to offer a standard
                    prescription drug benefit or an alternative benefit that is “actuarially
                    equivalent” to the standard benefit. Part D plans may also offer
                    enhanced plan benefit packages. Most beneficiaries are responsible for
                    certain costs, which may include a monthly premium, an annual
                    deductible, and coinsurance. However, beneficiaries with limited
                    income are eligible to receive assistance to pay for some or all of these
                    costs in the form of a low-income subsidy.

                    The standard drug benefit requires beneficiaries to pay a maximum
                    deductible of $265 in 2007. In the initial phase of the Part D benefit,
                    after this deductible is paid, beneficiaries contribute 25 percent
                    coinsurance toward their drug costs and the plan pays the remaining
                    75 percent until combined beneficiary and plan payments reach a total
                    of $2,400. After the $2,400 limit is reached, beneficiaries enter the
                    coverage gap phase of the benefit in which they are responsible for
                    100 percent of their drug costs. The catastrophic coverage phase begins
                    when a beneficiary’s TrOOP costs reach $3,850.2 This amount includes
                    the beneficiary’s deductible and coinsurance payments. Once
                    beneficiaries reach $3,850 in TrOOP costs, they contribute
                    approximately 5 percent coinsurance toward their drug costs. Of the
                    remaining 95 percent, the Part D plans are responsible for
                    approximately 15 percent of drug costs and CMS pays the plans
                    80 percent. This 80-percent reimbursement to the plans is called a
                    reinsurance subsidy.
                    Calculating TrOOP Costs
                    Some Medicare beneficiaries with Part D coverage have additional
                    prescription drug coverage through other entities, such as State
                    Pharmaceutical Assistance Programs, group health plans, Medicaid
                    programs, the Federal Employee Health Benefits Program, or



                      2 In 2006, the deductible was $250 and the TrOOP costs threshold was $3,600. Available
                    online at http://www.rds.cms.hhs.gov/downloads/Final2007PartDParameterUpdate.pdf.
                    Accessed May 4, 2007.




 OEI-03-06-00360    T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                               2
I N T R O D        U C T       I O N


                    TRICARE. However, only certain drug payments are eligible to be
                    counted toward the TrOOP costs threshold.

                    Drug payments that count toward TrOOP costs include:

                    • payments made by a beneficiary or another person on behalf of a
                      beneficiary, such as a family member;

                    • low-income cost sharing subsidies;

                    • payments by a qualified charity; and

                    • payments made by a State Pharmaceutical Assistance Program.

                    Drug payments that do not count toward TrOOP costs include:

                    • premiums paid by the beneficiary;

                    • payments made by a group health plan (e.g., employer or retiree
                      plan);

                    • payments made by Government programs (e.g., Veterans Affairs or
                      TRICARE);

                    • payments covered by an automobile insurer; and

                    • payments made by Part D plans as part of an enhanced plan benefit
                      package.
                    Coordination of Prescription Drug Benefits
                    Part D plans are required by law to coordinate benefits with other
                    entities that provide prescription drug coverage (42 U.S.C. § 1395w-133
                    and 134). Coordination of benefits enables each payer to determine its
                    payment responsibility.3 Coordination of benefits plays a pivotal role in
                    the context of calculating beneficiaries’ TrOOP costs because, as
                    discussed above, prescription drug payments by some payers count
                    toward TrOOP costs while others do not.

                    CMS amended the existing contract with COBC in February 2005 to
                    include collecting information on Part D beneficiaries’ additional drug
                    coverage. COBC collects this information from other payers through
                    Voluntary Data-Sharing Agreements, Coordination of Benefits

                       3 CMS outlined coordination of benefits requirements, including requirements related to
                    tracking TrOOP costs, in its “Part D Coordination of Benefits Guidance” issued in July
                    2005. This document served as the basis for the “Medicare Prescription Drug Benefit
                    Manual” chapter on coordination of benefits issued in December 2006. Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/dowloads/PDMChapt14COB.pdf.
                    Accessed December 16, 2006.



 OEI-03-06-00360    T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                                     3
I N T R O D       U C T         I O N


                  Agreements, and other processes and submits the information to CMS’s
                  Medicare Beneficiary Database (MBD). Beneficiaries’ additional drug
                  coverage information is sent from the MBD to the Medicare Advantage-
                  Prescription Drug system, which then shares a coordination of benefits
                  data file with all Part D plans.

                  The MMA specifies that Part D plans have the authority to require
                  Medicare beneficiaries to report information about additional
                  prescription drug coverage they have (42 U.S.C. § 1395w-
                  102(b)(4)(D)(ii)). Plans must survey their enrollees regarding additional
                  coverage and submit this information to COBC. Part D plans transmit
                  files containing enrollees’ additional prescription drug coverage data to
                  COBC through the Electronic Correspondence Referral System (ECRS).
                  COBC validates the additional drug coverage data and submits it to the
                  MBD.

                  CMS contracted with a TrOOP Facilitator to assist Part D plans in
                  coordinating beneficiaries’ prescription drug benefits at the point of
                  sale. The TrOOP Facilitator is responsible for tasks such as receiving
                  and maintaining Part D beneficiaries’ eligibility information,
                  responding to eligibility queries from pharmacies, identifying payments
                  for prescription drugs made by other payers, and forwarding this
                  information to Part D plans.
                  Prescription Drug Event Data and Reconciliation
                  For every prescription filled, the Part D plan must submit an electronic
                  summary record, called the prescription drug event (PDE) record, to
                  CMS. The PDE record contains prescription drug cost and payment
                  data that enable CMS to make payments to the plans and otherwise
                  administer the Part D benefit. The Part D plans were required to
                  submit their first batch of PDE records to CMS by March 31, 2006.
                  Thereafter, plans were required to submit PDE records to CMS at least
                  once a month.4 Plans must submit all PDE data, including retroactive
                  changes, 5 months after the end of the coverage year.

                  The PDE information will be used in the reconciliation process, which
                  will compare prospective payments made to Part D plans during the
                  coverage year to actual costs as represented by the PDE data. Accurate
                  TrOOP costs are essential to the calculation of actual costs and any


                     4 CMS issued instructions to Part D plans regarding the PDE data in January 2006. The
                  instructions were updated in April 2006.



OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                               4
I N T R O D         U C T        I O N


                      necessary adjustments to payments to Part D plans. Part D plans
                      cannot appeal reconciliation results based on failure to submit data in a
                      timely manner.5


                      METHODOLOGY
                      Part D Plan Sample
                      When we selected the sample in August 2006, CMS had 91 PDP contracts
                      and 474 MA-PD contracts with Part D sponsors. We excluded from the
                      sampling frame 12 PDP plans because they were direct contracts between
                      CMS and employers or contracts with insurers that offer plans on behalf of
                      employers. We excluded 77 MA-PD plans because they were cost plans,
                      Program of All-Inclusive Care for the Elderly plans, or demonstration
                      plans.6 We also excluded 1 PDP and 18 MA-PDs that had fewer than
                      20 enrollees each as of June 7, 2006.

                      As shown in the table below, we divided the remaining 457 plans into four
                      strata based on the type of plan and number of enrollees in each plan. The
                      plans in stratum 2 and stratum 4 represent the top five PDP and MA-PD
                      plans, respectively, by enrollment. We selected a stratified simple random
                      sample of 142 Part D plans. The sample was designed to produce
                      statistical estimates with an expected precision of +/-10 percent at the
                      95-percent confidence level. After selecting the sample, we learned that
                      one MA-PD was an employer-based contract that should have been
                      excluded from the sampling frame. We removed this contract from the
                      sample, for a total sample of 141 Part D plans.
    Table - Sample of Part D Plans
                                                                Number of Part D Plans in   Number of Part D Plans in
      Stratum Definition
                                                                Sampling Frame              Final Sample

      1. PDPs with fewer than 537,486 enrollees                                  73                         45

      2. PDPs with 852,712 to 3.3 million enrollees                               5                         5

      3. MA-PDs with fewer than 121,056 enrollees                                374                        86

      4. MA-PDs with 179,805 to 637,664 enrollees                                 5                         5

      Total                                                                      457                    141



                        5 “CMS 2005 Prescription Drug Event Training Participant Guide,” p.12-2. Accessed
                      online May 6, 2006. This version of the guide is no longer available online.
                        6 These types of plans were excluded from the sampling frame because they may have
                      had Part D requirements that differed from those of PDP and MA-PD plans.



 OEI-03-06-00360      T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                                   5
I N T R O D        U C T       I O N


                    Data Collection
                    To identify the processes that Part D plans use to ensure the accurate
                    tracking of TrOOP costs, we conducted an online survey and collected
                    documentation from our sample of Part D plans between January and
                    March 2007. We requested that the plans provide documentation
                    outlining their policies and/or processes for tracking TrOOP costs. We
                    received survey responses for 138 Part D plans. Three Part D plans did
                    not respond to our survey after multiple e-mail and telephone follow-up
                    efforts to obtain their responses. We received responses from 48 of
                    50 PDPs and 90 of 91 MA-PDs. These plans covered 79 percent of
                    Medicare beneficiaries enrolled in Part D plans as of June 2006.
                    We conducted an onsite interview with CMS staff in October 2006 to
                    determine what oversight processes CMS has in place to ensure the
                    accurate tracking of TrOOP costs and to learn the results of these
                    processes. The interview focused on CMS’s oversight of the Part D
                    plans. We also collected relevant documentation from CMS, such as
                    policies and analysis spreadsheets.

                    To determine the processes that COBC uses to help ensure the accurate
                    tracking of TrOOP costs, we conducted an onsite interview with COBC
                    staff in October 2006 and obtained relevant documentation. To gain a
                    better understanding of the functions of the TrOOP Facilitator, we
                    conducted an onsite interview with a representative of the TrOOP
                    Facilitator in October 2006 and obtained related documents.
                    Data Analysis
                    We aggregated quantitative Part D plan survey results to analyze plans’
                    procedures related to tracking enrollees’ TrOOP costs, including
                    communicating with enrollees to obtain additional drug coverage
                    information, processing changes to enrollees’ TrOOP balances,
                    transferring TrOOP balances when enrollees change plans, and
                    submitting required data to COBC and CMS. Based on plan survey
                    results, we calculated weighted estimates of the percentage of enrollees
                    affected by particular plan characteristics. All statistical estimates
                    reflect the stratified simple random sample design and are provided in
                    Appendix A.

                    We reviewed and analyzed quantitative data files provided to OIG by
                    CMS and COBC in connection with our interviews. We analyzed
                    narrative responses to open-ended questions that Part D plans recorded
                    in the online survey. Finally, we analyzed narrative responses that



 OEI-03-06-00360    T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S             6
I N T R O D        U C T       I O N


                    CMS, COBC, and TrOOP Facilitator staff provided during onsite
                    interviews.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-06-00360    T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S           7
F   I N D I N G        S
Δ       F I N D I N G S

     Information on enrollees’ additional drug               To track TrOOP costs accurately,
coverage, essential for the accurate tracking of             Part D plans must have
                                                             information on any prescription
            TrOOP costs, was not consistently
                                                             drug coverage that enrollees have
                    submitted to COBC in 2006
                                                             in addition to Part D coverage.
                      The COBC has processes in place to collect information on Medicare
                      beneficiaries’ additional drug coverage. One process requires that
                      Part D plans submit enrollee survey data and another involves the
                      establishment and implementation of data-sharing agreements with
                      other payers of prescription drug benefits.
                      Twenty-nine percent of Part D plans did not submit enrollees’ additional
                      drug coverage data to the Coordination of Benefits Contractor in 2006
                      CMS requires Part D plans to survey their enrollees within 30 days of
                      enrollment and annually thereafter and submit to COBC information
                      regarding any prescription drug coverage enrollees have in addition to
                      Part D coverage. Our January 2007 survey of Part D plans indicates
                      that 93 percent of plans had conducted an initial enrollee survey.
                      However, 29 percent of plans reported that they did not submit their
                      enrollees’ additional drug coverage information to COBC in 2006. These
                      plans covered 25 percent of Part D enrollees. Most of these plans
                      indicated that they had neither a manual process nor an electronic
                      system for submitting the required information or they had problems
                      connecting to the ECRS.
                      Part D plans need information concerning enrollees’ additional
                      prescription drug coverage to track TrOOP costs accurately. For
                      example, an enrollee may have additional prescription drug coverage
                      through a group health plan that makes drug payments on the
                      enrollee’s behalf that do not count towards TrOOP costs. If an enrollee’s
                      Part D plan is not aware of this additional drug coverage, the enrollee’s
                      TrOOP costs will accumulate more quickly because payments made by
                      the other plan would not be removed from the enrollee’s TrOOP balance.
                      As a result, the enrollee may not be in the correct phase of the Part D
                      benefit.

                      Part D plans’ records containing enrollees’ additional drug coverage
                      information were often rejected by the ECRS. COBC provided data to
                      OIG indicating that, as of October 2006, many of the records plans
                      submitted containing enrollees’ additional drug coverage data had been
                      rejected by the ECRS. In some cases, over 85 percent of a plan’s records
                      submitted to the ECRS were rejected. COBC explained that records


    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S             8
F   I N D I N G 
S


                      submitted to the ECRS were rejected because plans submitted incorrect
                      data. For example, a plan may have sent an internal enrollee policy
                      number instead of the Health Insurance Claim Number that the ECRS
                      requires to identify a Medicare beneficiary. As a result, information on
                      beneficiaries’ additional drug coverage cannot be incorporated into the
                      MBD. In October 2006, COBC indicated that it had conducted a
                      number of training sessions for Part D plans on submitting enrollees’
                      additional drug coverage data to the ECRS. However, COBC also
                      reported that plans were just beginning to focus on submitting these
                      data, having spent the earlier part of 2006 focusing on other aspects of
                      implementing the Part D benefit.
                      Thirty-six percent of entities that had data-sharing agreements with the
                      Coordination of Benefits Contractor did not submit their enrollees’
                      additional drug coverage information for at least one of those agreements
                      To facilitate the exchange of coverage information, COBC establishes
                      data-sharing agreements with other payers. These voluntary
                      agreements are called Coordination of Benefits Agreements (COBA) and
                      Voluntary Data-Sharing Agreements (VDSA). Entities may have more
                      than one COBA with COBC. According to data provided by COBC,
                      36 percent (57 of 160) of entities that had active data-sharing
                      agreements did not provide enrollees’ additional drug coverage
                      information to COBC for at least one of those agreements in 2006. In
                      particular, 55 percent (42 of 76) of entities with active COBAs did not
                      provide enrollees’ additional drug coverage information to COBC for at
                      least one of those agreements in 2006. Eighteen percent (15 of 84) of
                      entities with VDSAs had not provided enrollees’ additional drug
                      coverage information to COBC as of October 2006. As stated above,
                      information on enrollees’ additional prescription drug coverage is
                      essential for successful coordination of benefits and accurate tracking of
                      TrOOP costs.

                      There are time- and money-saving incentives for non-Medicare payers
                      to establish data-sharing agreements and provide drug coverage data to
                      COBC.7 However, other payers of drug benefits are not required to
                      provide coverage information to COBC. As a result, even though payers
                      have established data-sharing agreements to provide additional drug


                        7 One incentive is that employers with VDSAs can obtain Medicare entitlement data
                      monthly or quarterly rather than spending up to 2 years to obtain such information through
                      other methods.



    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                                9
F   I N D I N G        S


                      coverage data, COBC can only encourage these payers to fulfill their
                      obligations under those agreements. COBC also indicated that the
                      data-sharing process requires a great deal of technological and other
                      resources. For example, establishing a telecommunication line for
                      electronic transmission of data alone can take up to 60 days and cost
                      $5,000 a month to maintain. In addition, setting up the data-sharing
                      files and testing the process can take a considerable amount of time.
                      Therefore, data-sharing agreements may be in place for some time
                      before the data-sharing process is successfully implemented.


                                                                   According to CMS’s
    Thirty-four percent of Part D plans did not submit
                                                                   “Updated Instructions:
          prescription drug event data in accordance               Requirements for
                      with CMS requirements in 2006                Submitting Prescription
                      Drug Event Data,” Part D plans were required to submit PDE data at
                      the end of the first quarter of 2006 and at least once per month
                      thereafter. Without plans’ PDE data, CMS cannot verify that plans
                      have calculated beneficiaries’ TrOOP costs correctly. Thirty-four
                      percent of plans did not submit PDE data at the end of the first quarter
                      or in one or more months after the first quarter of 2006. These plans
                      covered 49 percent of Medicare beneficiaries enrolled in Part D plans.
                      The plans indicated that they submitted PDE data outside CMS’s
                      required timeframes, had technical difficulties submitting PDE data
                      files, or had problems or delays obtaining Part D prescription drug data
                      from their pharmacy benefit managers. Of the plans that did not
                      submit PDE data in accordance with CMS requirements, three-quarters
                      failed to submit data in one or more months after the first quarter of
                      2006.

                      CMS provided OIG with information indicating that CMS had taken
                      steps to follow up with Part D plans that were not complying with PDE
                      data certification and submission requirements in 2006. CMS sent
                      warning letters in June 2006 to Part D plans that had not submitted
                      test PDE data files and were not yet certified to submit PDE data to
                      CMS. CMS issued corrective action plans in August 2006 to Part D
                      plans that remained noncompliant with CMS’s PDE data testing and
                      certification requirements.




    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S            10
F   I N D I N G        S       



                                                                   When a beneficiary changes
Sixty-three percent of Part D plans cited problems                 from one Part D plan to
 with transferring TrOOP balances when enrollees                   another, CMS requires the
                                      change plans                 disenrolling plan to transmit a
                                                                   Transfer Explanation of
                      Benefits (EOB) to the beneficiary’s new plan of record within 7 days of
                      disenrollment. This record must contain the beneficiary’s TrOOP
                      balance and the total payments the plan has made to pharmacies on the
                      beneficiary’s behalf. If this information is not received by the new plan
                      or is not accurate, the beneficiary may not be in the correct phase of the
                      benefit (i.e., initial coverage, coverage gap, or catastrophic coverage).
                      Overall, 63 percent of Part D plans, covering 78 percent of Part D
                      enrollees, reported having issues or problems with transferring TrOOP
                      balances when enrollees change plans during the coverage year. These
                      problems included manual processes for transferring TrOOP balance
                      records and the receipt of incorrect, questionable, or inconsistent TrOOP
                      balance data.
                      Two-fifths of Part D plans had issues or problems with the resource-
                      intensive nature of the TrOOP balance transfer process
                      Forty percent of plans indicated that the labor- and resource-intensive
                      nature of the process was an issue or a problem. Plans indicated that
                      the transfer of TrOOP balances relied heavily on manual processes,
                      such as faxing paper copies of Transfer EOB records to the new Part D
                      plan or creating hundreds of compact disks containing enrollee TrOOP
                      balance information for new plans. According to the “Medicare
                      Prescription Drug Benefit Manual,” CMS is considering options for
                      automating this process in the future.
                      About one-quarter of Part D plans reported that Transfer Explanation of
                      Benefits records contained incorrect or questionable information
                      Twenty-eight percent of plans indicated that they received Transfer
                      EOB records containing incorrect or questionable TrOOP balances. For
                      example, the EOB record might contain the amount of the most recent
                      change in the enrollee’s TrOOP balance rather than the total TrOOP
                      balance. Nine plans reported receiving EOB records with TrOOP
                      balances that were greater than the total payments made to
                      pharmacies, calling into question the validity of the information.

                      One-quarter of plans indicated that the information in the effective date
                      field on the Transfer EOB record was incorrect. According to the
                      “Medicare Prescription Drug Benefit Manual,” the effective date on the


    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S               11
F   I N D I N G 
S


                      Transfer EOB record should be the date that the reported TrOOP
                      balance and total payments made to pharmacies were calculated.
                      However, plans indicated that this field might include the date that the
                      EOB record was created or the enrollee’s eligibility effective date.
                      Without correct information concerning the date an enrollee’s TrOOP
                      balance was last calculated by a previous plan, the new Part D plan
                      cannot determine what subsequent TrOOP cost accumulations should
                      be applied to the enrollee’s current TrOOP balance.
                      Multiple Transfer Explanation of Benefits records per enrollee made
                      accurate calculation of TrOOP costs difficult for some Part D plans
                      After a beneficiary changes Part D plans and the Transfer EOB is sent
                      to the new plan, it is still possible that the beneficiary’s previous plan
                      may revise his or her TrOOP balances based on new or updated
                      information it receives from pharmacies or other payers. In such cases,
                      CMS requires the previous plan to provide the new plan with an
                      updated EOB record reflecting the new TrOOP balance. Twelve of the
                      plans that cited issues or problems with the TrOOP balance transfer
                      process indicated that they had received multiple EOB records for one
                      enrollee. Plans indicated that they received EOB records that were
                      exact duplicates or had duplicate information but different TrOOP
                      balances. Some plans received multiple EOBs for enrollees who had
                      more than one plan benefit package during the coverage year. In all of
                      these circumstances, plans indicated that it was difficult to determine
                      which reported TrOOP cost amount to apply to the enrollee’s new
                      TrOOP balance.

                CMS has conducted limited oversight of              CMS has conducted limited
                  Part D plans’ tracking of TrOOP costs             oversight of Part D plans’
                                                                    tracking of beneficiaries’
                      TrOOP costs. The oversight CMS has conducted thus far relied on
                      plans’ self-reported data. These data indicated that most plans were not
                      in full compliance with coordination of benefits and TrOOP tracking
                      requirements in at least the first half of 2006.
                      CMS’s oversight of plans’ compliance with requirements related to tracking
                      TrOOP costs relied on self-reported data from Part D plans in 2006
                      As described previously, CMS asked Part D plans to attest to their
                      compliance with all of the requirements outlined in CMS’s 2006
                      Coordination of Benefits Guidance. CMS provided OIG with the results
                      of this effort. Based on plans’ attestations, 405 of 501 plans (81 percent)
                      were not in compliance with one or more of all requirements. A total of


    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S              12
F   I N D I N G 
S


                      261 of these plans were not in compliance with one or more of four
                      requirements specifically related to calculating TrOOP costs. These
                      requirements included tracking TrOOP costs in real time, adjusting
                      TrOOP balances based on claims received in other than real time, and
                      transferring a beneficiary’s TrOOP balance to another Part D plan when
                      the beneficiary disenrolls during the coverage year. Plans that scored
                      below a certain number of points based on their attestations were
                      required to complete a business plan for achieving compliance with all
                      coordination of benefits requirements, including those related to
                      tracking TrOOP costs. According to CMS, 21 percent of plans (106 of
                      501) were required to submit either business plans specifying actions
                      they would take to become compliant or attestations indicating that
                      actions had already been taken to achieve compliance with all
                      requirements.
                      As of April 2007, other CMS oversight activities regarding Part D plans’
                      tracking of TrOOP costs were either in the planning stages or in the process
                      of being implemented
                      CMS finalized protocols for conducting routine audits of Part D plans’
                      processes and procedures in April 2006. These guides include elements
                      related to the coordination of benefits and TrOOP costs, such as
                      ensuring that plans have systems in place to collect information on
                      enrollees’ additional drug coverage and to track expenditures made by
                      other payers to determine if enrollees have reached the TrOOP
                      threshold. As of April 2007, no audits had been conducted. Our survey
                      of Part D plans confirmed that CMS has not conducted any individual
                      performance reviews regarding plans’ tracking of TrOOP costs.

                      Part D regulations require that CMS conduct financial audits of at least
                      one-third of Part D plans each year (42 CFR § 423.504(d)). According to
                      CMS staff, these financial audits will include elements related to plans’
                      tracking of TrOOP costs. However, CMS had not finalized the financial
                      audit program and audit guide. CMS had not yet obtained contractors
                      to conduct the financial audits. According to CMS staff, financial audits
                      for contract year 2006 are not scheduled to begin before January 2008.

                      CMS staff indicated in October 2006 that its contractor was analyzing a
                      sample of PDE data that Part D plans submitted to CMS. The purpose
                      of the analysis was to determine whether Part D plan PDE data
                      confirmed that plans administered the Part D benefit in a manner
                      consistent with both CMS requirements and plan benefit packages’



    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S             13
F   I N D I N G        S


                      structures. As of April 2007, CMS indicated that no formal findings
                      from the PDE data analysis have been issued.




    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S              14
 E X RE   EC CU OT IM V M E E NS UD MA M
                                       T IA OR NY S
Δ


                     To calculate TrOOP costs correctly, information on enrollees’ additional
                     prescription drug coverage must be submitted by Part D plans as well as by
                     entities that have data-sharing agreements with COBC. Plans must also
                     transfer accurate enrollee TrOOP balance information to and from other
                     plans when enrollees change plans during the coverage year. In addition,
                     CMS must have Part D plans’ PDE data to verify that plans have
                     calculated TrOOP costs correctly. Our findings indicate that these
                     requirements were not carried out consistently in 2006. CMS is responsible
                     for the oversight of Part D plans’ tracking of TrOOP costs. Therefore, we
                     recommend that CMS:

                     Ensure That Part D Plans Collect, Process, and Submit All Data
                     Required To Track Enrollees’ Troop Costs in a Timely Manner

                     As described in this report, CMS requires that Part D plans collect and
                     submit enrollees’ additional prescription drug coverage information to
                     COBC, process prescription drug claims and submit PDE records to CMS,
                     and work with other Part D plans to transfer enrollees’ TrOOP balances.
                     We recently learned that CMS is working with the National Council for
                     Prescription Drug Programs (NCPDP) to establish a standardized
                     electronic system for transferring enrollees’ TrOOP balance information
                     from one plan to another in real time.8 CMS should continue to establish
                     or improve automated systems to enable Part D plans to meet all data
                     requirements related to tracking TrOOP costs.

                     Consider Options for Increasing the Number of Coordination of Benefits
                     Agreements With Other Payers and Ensuring That Data Are Submitted
                     Under Those Agreements

                     Accurate tracking of TrOOP costs is dependent largely on successful
                     coordination and sharing of prescription drug coverage information among
                     payers and CMS contractors. CMS should ensure that all options for
                     increasing the number of data-sharing agreements have been considered.

                     Because entities that provide additional drug coverage for Part D
                     enrollees are not required by law to report such information, CMS may
                     want to consider seeking to expand its authority to enforce agreements


                         8 NCPDP is a not-for-profit Standards Development Organization consisting of over
                      1,450 members from the pharmacy services industry.



   OEI-03-06-00360    T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                               15
R   E C O         M M E N D A T               I O N         S


                    once they are in place. The President’s 2008 Budget includes a proposal
                    to establish a data clearinghouse that would work to determine whether
                    private insurance or Medicare should pay for a beneficiary’s health
                    benefits. If implemented, such a clearinghouse could provide CMS with
                    access to more comprehensive drug coverage information.

                    Begin or Complete Implementation of Planned Oversight Activities
                    Related to the Tracking of Troop Costs

                    The implementation of the Part D benefit was a large undertaking for
                    CMS, its contractors, and Part D plans. Now that the program has been
                    in place for almost 2 years, CMS should place more emphasis on
                    conducting oversight activities. Examining Part D plans’ efforts to track
                    TrOOP costs should be a priority given that these costs determine when
                    beneficiaries reach each phase of the Part D benefit. OIG intends to
                    focus future work on whether Part D plans have calculated beneficiaries’
                    TrOOP costs correctly.


                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS agreed that OIG’s report identified potential issues regarding the
                    accurate tracking of TrOOP costs and that additional work is needed to
                    ensure that Part D plans are calculating TrOOP costs correctly. CMS did
                    not indicate whether it concurred with OIG’s three recommendations in
                    its response. However, CMS did note that it has taken or will take steps
                    in response to these recommendations. For the full text of CMS’s
                    comments, see Appendix B.
                    In response to the recommendations, CMS stated that it intends to
                    continue the process of asking Part D plans to self-attest to their
                    compliance or noncompliance with coordination of benefits requirements,
                    including those specific to TrOOP, and intends to follow up with plans
                    that report noncompliance. CMS is revising the 2008 Part D Explanation
                    of Benefits letter to include TrOOP balances reported by prior plans to an
                    enrollee’s current plan. In addition, CMS intends to use PDE data to
                    monitor TrOOP accumulation after reconciliation activities for 2006 have
                    been completed. CMS reported that it is beginning to enforce the full
                    terms of its data-sharing agreements by notifying data-sharing partners
                    that their access to Medicare entitlement data will be suspended if they
                    do not comply with their agreements. CMS also stated that it continues
                    to support legislative proposals for mandatory insurer reporting of private
                    insurance coverage. CMS stated again that it plans to conduct financial

OEI-03-06-00360      T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S              16
R   E C O        M M E N D A T                I O N        S


                      audits of one-third of Part D plans for contract year 2006. According to
                      CMS, one aspect of these audits will be to examine, in general, how
                      Part D plans track TrOOP costs.

                      CMS provided comments on two OIG findings. CMS suggested that OIG
                      had incorrectly stated that inaccurate tracking of TrOOP costs could lead
                      an enrollee to reach the coverage gap sooner. CMS also stated that the
                      number of entities with data-sharing agreements that did not submit
                      enrollees’ other prescription drug coverage information to COBC included
                      entities such as Medicaid agencies that did not provide drug coverage and,
                      therefore, did not have drug coverage information to submit. CMS
                      calculated different figures and suggested that OIG incorporate them in
                      its report.

                      We addressed the comments CMS provided about our findings. We
                      clarified that an enrollee may not be in the correct phase of the Part D
                      benefit if his or her TrOOP costs are not calculated accurately. We
                      requested the source data from COBC that CMS used to develop the
                      figures in its comments regarding entities with data-sharing agreements
                      that did not provide required drug coverage information to COBC in 2006.
                      After receiving revised data from CMS, we updated the figures in our
                      report regarding entities with active COBAs or VDSAs that did not
                      provide drug coverage information to COBC in 2006 as required. The
                      figures in our final report differ from those in CMS’s comments because
                      the electronic data underlying CMS’s comments covered a different time
                      period than our report and was not reconciled against hard-copy
                      data-sharing agreements. In addition, as a technical clarification, the
                      COBC confirmed in follow-up discussions that several Medicaid agencies
                      had data-sharing agreements in place for which they submitted drug
                      coverage information in 2006.

                      We ask that CMS indicate in its final management decision whether it
                      concurs with our recommendations.




    OEI-03-06-00360    T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S              17
Δ   A P P E N D I X                         ~        A



     The table below contains estimates presented in the Findings section of this report.
     Point estimates and confidence intervals were weighted based on the stratified
     simple random sample design and are reported at the 95-percent confidence level.



     Estimates and Confidence Intervals

     Part D Plan Characteristic                                 Point Estimate      95-Percent
                                                                                 Confidence Interval

     Part D plans that conducted an initial survey of
                                                                         93.3%      89.6% - 97.1%
     enrollees

     Part D plans that did not submit enrollees’
     additional drug coverage information to COBC                        29.4%      22.3% - 36.4%
     in 2006

     Part D enrollees covered by plans that did not
     submit enrollees’ additional drug coverage                          25.4%      18.8% - 32.0%
     information to COBC in 2006

     Part D plans that did not submit PDE data in
                                                                         33.8%      26.3% - 41.2%
     accordance with CMS requirements in 2006

     Part D enrollees covered by plans that did not
     submit PDE data in accordance with CMS                              49.2%      42.8% - 55.6%
     requirements in 2006

     Part D plans that cited problems with transferring
                                                                         63.2%      55.6% - 70.7%
     TrOOP balances to or from other plans

     Part D enrollees covered by plans that cited
     problems with transferring TrOOP balances to                        78.4%      73.6% - 83.2%
     or from other plans

     Part D plans that cited the labor- and resource-
     intensive nature of the TrOOP balance transfer                      39.9%      32.1% - 47.7%
     process as an issue or problem

     Part D plans that received Transfer EOB records
                                                                         28.4%      21.1% - 35.7%
     with incorrect or questionable TrOOP balances

     Part D plans that received Transfer EOB records
                                                                         25.0%      18.0% - 32.0%
     with incorrect effective dates


OEI-03-06-00360       T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S                      18
 Δ      A P P E N D I X                     ~        B



Agency Comments




    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S   19
A   P   P E N D       I X       ~       B        





    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S   20
A   P   P E N D       I X       ~       B        





    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S   21
A   P   P E N D       I X       ~       B        





    OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S   22
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Tara Bernabe and Amy Sernyak served as team leaders for this study.
                  Other principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to this report include
                  Cynthia Hansford and Nancy J. Molyneaux; central office staff who
                  contributed include Linda Abbott, Kevin Farber, and Scott Manley.




OEI-03-06-00360   T RACKI NG BENEFICIARIES’ T RUE O UT-O F- PO CKET COST S           23
